              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Special Report

Management and Operating
Contractors' Subcontract Audit
Coverage




DOE/IG-0885                             April 2013
                                  Department of Energy
                                     Washington, DC 20585

                                          April 17, 2013


MEMORANDUM FOR THE SECRETARY



FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "Management and Operating
                         Contractors' Subcontract Audit Coverage"

BACKGROUND

The Department of Energy (Department) employs 28 Management and Operating (M&O)
contractors that perform essential mission work under cost reimbursable contracts. To achieve
the Department's mission, M&O contractors often utilize the services of subcontractors, which
are also funded by the Department. When these subcontracts are structured as cost-type,
including time and materials, and cost reimbursable subcontracts, M&O contractors are
contractually required to ensure that associated costs incurred are audited to provide assurance
that the costs are allowable. The M&O contractors may use their internal audit staff, engage
contract auditors, or use the services of the Defense Contract Audit Agency (DCAA) to audit the
subcontractors. Internally performed audits must, at a minimum, meet professional standards
prescribed by the Institute of Internal Auditors. M&O contractors presumably rely on audits of
subcontractors when completing required annual certifications that all of their incurred costs are
allowable.

The Office of Inspector General identified contract management as a management challenge in
its report on Management Challenges at the Department of Energy (DOE/IG-0874, October
2012). The Department has committed to improving contract management and we recognize that
such a significant issue requires a concerted effort over time. Over the past few years, however,
our reviews have shown that some M&O contractors have not provided sufficient audit coverage
of their subcontracts. The objective of this report is to highlight the issues we identified in our
previous reports and stress the need for a top-down emphasis to ensure that all M&O contractors
develop robust procedures for subcontract audits.

RESULTS

Between 2010 and 2012, the Office of Inspector General reported subcontract audit weaknesses
with nine M&O contractors. Subcontracts valued in excess of $906 million had not been audited
or were reviewed in a manner that did not meet audit standards. Several examples included:

   •   $398 million in subcontract costs at nine contractors that had not been audited as required
       by the M&O contracts. Of this amount, nearly $160 million at the Yucca Mountain
       Project (Yucca Mountain) had not been audited at the time the program was terminated in
       2010.
                                                 2

   •   $165 million in subcontract costs that had not been subjected to audits that met required
       professional standards at Los Alamos National Laboratory (Los Alamos).

   •   Nearly $343 million in subcontract costs at Los Alamos that should have been audited but
       did not require audit under a strategy approved by the Los Alamos Field Office.

The subcontract costs were not audited because the Department did not ensure that its M&O
contractors developed and implemented procedures to meet their contractual requirements.
Specifically, although the M&O contractors are contractually required to conduct or arrange for
audits of their cost-type subcontracts, we determined that:

   •   Four of the nine M&O contractors that had not audited their subcontracts failed to
       develop an approach to meet their contractual requirement for audit. For example, at the
       Kansas City Plant we found that the contractor, although required to arrange for audits of
       its subcontractors, had almost $21 million in subcontract costs that had not been audited
       because there were no internal procedures for auditing ongoing subcontracts.

   •   Five contractors that had defined approaches for conducting their subcontract audits did
       not follow them. For example, at Yucca Mountain, although the contractor relied on
       DCAA to audit its subcontracts, it had not arranged for these audits to be conducted, as
       required.

   •   One contractor conducted reviews of subcontract costs that did not meet audit standards
       because the contractor assigned the reviews to a non-audit entity. Specifically, at Los
       Alamos, the Laboratory's procurement group reviewed the subcontract costs but the
       audits did not meet professional standards for independence, objectivity, due professional
       care and documentation.

   •   Los Alamos' approved audit strategy only required audits of subcontracts with annual
       incurred costs that exceeded $15 million. Under this threshold, only 2 of 1,404
       subcontracts were required to be audited.

The failure to ensure that effective subcontract audit policies are developed and implemented
substantially increases the risk that unallowable costs will be incurred and not detected in a
timely manner. In addition to ensuring audits are arranged and conducted in accordance with
professional standards, timeliness of audit completion is also critical. Notably, we learned that in
most cases there is only a 3-year retention requirement for subcontractors to maintain cost data.
As such, the lack of a timely audit increases the risk that records necessary to conduct an audit
will not be available. Finally, as it pertains to audit timelines, the statute of limitations may
prevent the M&O contractors from recovering unallowable costs if the audits are not performed
within a reasonable time frame.

While unallowable costs and imprudent use of resources have always been important factors that
have routinely been examined during audits, ensuring that funds are spent wisely has become
even more critical in this period of shrinking budgetary resources. Audits are valuable for
ensuring unallowable costs are quantified and, through recovery or denial of claims, making
additional funds available for other pressing Departmental needs. To illustrate this point, the
                                                 3

subcontract audits performed during the period covered by our review identified over $2.5
million in questioned costs. Also, as generally recognized, audits serve as a potent deterrent to
the misuse of Federal resources.

We noted that while some sites have taken action in response to our reports, we believe that a greater
Department-wide emphasis on auditing cost-type subcontracts is needed. Accordingly, we made
recommendations to improve the subcontract audit function.

Based on our ongoing evaluation of contract audit coverage, the lack of audited contractor costs also
appears to extend beyond subcontracts. In particular, the Department has recognized that with its
increased use of non-M&O type contracts and difficulties in obtaining timely support from the
agency responsible for providing audit support for those contracts, the DCAA, there is a need for
additional audit policy guidance. In December 2012, the Director, Office of Policy, Office of
Acquisition and Project Management noted that her Office and the Office of the Chief Financial
Officer were working to develop new audit guidance for the Department's contracting officers. For
its part, the Office of Inspector General is analyzing the impact of the current audit strategy on the
timeliness of non-M&O contract audits. The issues identified and recommendations made in this
report should be useful to the Department's ongoing review of its audit policy.

MANAGEMENT REACTION

Management concurred with the report's findings and recommendations and agreed to take
corrective actions. Management's formal comments are included in their entirety in Appendix 2.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Chief Financial Officer
    Director, Office of Management
    Acting Administrator, National Nuclear Security Administration
SPECIAL REPORT ON MANAGEMENT AND OPERATING
CONTRACTORS' SUBCONTRACT AUDITS


TABLE OF
CONTENTS

Subcontract Management

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................6

Management Reaction and Auditor Comments ...............................................................................7

Appendix

1. Office of Inspector General Reports ..........................................................................................8

2. Management Comments ..........................................................................................................10
MANAGEMENT AND OPERATING CONTRACTORS' SUBCONTRACT
AUDITS

Background

The Department of Energy (Department) utilizes 28 Management and Operating (M&O)
contracts as a means of completing its mission work at various sites. In accomplishing their
tasks, M&O contractors employed a significant number of subcontractors. The M&O
contractors are required to manage and administer each of the subcontracts they award, including
ensuring necessary audits are conducted. M&O contracts are required to contain Department of
Energy Acquisition Regulation Clauses 970.5232-3 and 970.5244-1, which require the
contractors to either conduct or arrange for periodic audits of their cost-type subcontractors'
costs.

M&O contractors must provide an Implementation Design Plan which, among other things,
identifies their plan for post-award audits of subcontractors. M&O contractors may use their
internal audit staff, engage contract auditors, or use the services of the Defense Contract Audit
Agency (DCAA) to perform audits of their subcontractors. The internally performed audits
must, at a minimum, meet the Institute of Internal Auditors (IIA) Standards. These standards
include, among other things, requirements for auditors to meet certain independence and
educational requirements, for work to be sufficiently documented and supervised, and for audit
sampling methodologies that produce valid, representative results.

As part of its review of costs claimed by M&O contractors, the Office of Inspector General
assesses the extent to which incurred cost audits are performed on subcontracts. During our
periodic review of Statements of Cost Incurred and Claimed prepared annually by M&O
contractors, we review incurred cost audits and evaluate whether necessary subcontract audits
have been performed. This work has revealed a number of weaknesses with subcontract audit
coverage. The objective of this report is to highlight the issues we identified in our previous
reports and stress the need for a top-down emphasis to ensure that all M&O contractors develop
robust procedures for subcontract audits.

Identified Subcontract Management Issues

Since 2010, the Office of Inspector General has issued 10 separate reports that identified
subcontract management weaknesses. Specifically, the total value of the subcontract costs that
had not been audited, or were reviewed in a manner that did not meet standards, exceeded $906
million. Because of the significance of the cost of these subcontracts and the seriousness of the
weaknesses we identified, we developed this report to highlight key issues for management
attention. Of the 10 reports we issued over the past 3 years, 9 disclosed a lack of audit coverage
of subcontracts and 1 disclosed that subcontract reviews performed did not meet relevant audit
standards. One report also disclosed that the M&O contractor's threshold for conducting audits
was set at a level that effectively excluded virtually all of its cost-type subcontracts.

                                   Subcontract Audit Coverage

While audits of cost-type subcontracts are required to help ensure only allowable costs are
reimbursed by the Government, we identified issues with inadequate audit coverage of cost-type


Page 1                                                                         Details of Finding
subcontracts by nine M&O contractors. Our reports, which addressed subcontracts in effect
between Fiscal Year (FY) 2001 and FY 2010, identified $398 million in subcontract costs that
had not been audited. The weaknesses we identified occurred with M&O contractors who
manage National Nuclear Security Administration (NNSA), Office of Science and Office of
Nuclear Energy sites. The following examples are indicative of the issues we identified. A full
listing of these reports is included in Appendix 1.

In our report entitled Audit Coverage of Cost Allowability for Bechtel SAIC Company, LLC
during Fiscal Years 2004 through 2009 under Department of Energy Contract No. DE-AC28-
01RW12101 (OAS-V-10-15, July 2010), we identified almost $160 million in subcontractor
costs that were not audited and considered unresolved pending audit when the Yucca Mountain
Project (Yucca Mountain) was closed in 2010. The contractor relied on DCAA to perform audits
of subcontractors; however, we identified at least 23 subcontracts in which we could not find
evidence that the contractor had requested an audit. The Office of Civilian Radioactive Waste
Management agreed to review the subcontracts we identified as requiring audit and committed to
requesting the appropriate audit for those subcontracts for which it determined an incurred cost
or closeout audit was required. As of November 2012, $136 million had been resolved through a
review of the costs, rather than an audit because documentation was not available for a full audit
in many cases.

Additionally, in our report on Audit Coverage of Cost Allowability for B&W Technical Services
Y-12, LLC under Department of Energy Contract No. DE-AC05-00OR22800 during Fiscal Year
2010 (OAS-V-12-07, May 2012), we found that 504 of 518 subcontracts, with incurred costs in
FY 2010 totaling $86.3 million, had not been audited by B&W Technical Services Y-12 LLC
(B&W Y-12). While labor costs related to time and material subcontracts were reviewed prior to
payment, the reviews did not satisfy the requirements for an audit. In particular, periodic audits
of time and materials subcontracts, which include floor checks of personnel, are important
elements to ensuring the contractor actually provided the level of effort for which it was
reimbursed. Our concern with this lack of audit coverage was consistent with that raised by the
NNSA Field Chief Financial Officer, who noted that "While there have been measures taken to
improve the related internal controls, Y-12 needs to ensure its subcontract costs are audited and
resultant questioned costs are properly dispositioned."

Further, in our report on Audit Coverage of Cost Allowability for Honeywell Federal
Manufacturing & Technologies, LLC under Department of Energy Contract No. DE-AC04-
01AL66850 for Fiscal Years 2007 and 2008 (OAS-V-10-11, May 2010), we found that although
Honeywell Federal Manufacturing and Technology LLC (Honeywell) was required to arrange
for audits of its subcontractors under its contract to operate the Kansas City Plant, almost $21
million in subcontract costs had not been audited. The Contracting Officer told us that
Honeywell's time and materials subcontract work instructions need to be strengthened to comply
with the terms of its contract with the Department related to subcontract audits.

Finally, our report on Audit Coverage of Cost Allowability for UChicago Argonne, LLC under
Department of Energy Contract No. DE-AC02-06-CH11357 for Fiscal Year 2009 (OAS-V-11-
07, March 2011) found that while UChicago Argonne arranged for closeout audits of completed
cost-type subcontracts greater than $650,000, it had a total of 24 open cost-type subcontracts


Page 2                                                                        Details of Finding
greater than $650,000 with a total value of approximately $86 million that had not been audited
while the subcontracts were active and incurring costs. Although it may have been impractical to
audit every cost-type subcontract, especially those that had a low dollar value, we identified two
multi-year subcontracts valued at approximately $38 million that we believe should have been
audited based on the large dollar value. Costs incurred during FY 2009 for these two
subcontracts totaled nearly $5.1 million.

These examples were consistent with issues we identified with five other contractors. In
particular, we identified:

     •    $17.4 million in subcontract costs that were subject to audit but unresolved pending
          completion of those audits at Los Alamos National Laboratory (Los Alamos);

     •    $10.4 million in unaudited subcontractor costs at the Idaho National Laboratory
          (Idaho);

     •    $8.4 million in unaudited subcontractor costs at the Pantex Plant;

     •    $5.7 million in unaudited subcontractor costs at Lawrence Berkeley National
          Laboratory (Berkeley), which were audited subsequent to our report; and,

     •    $3.6 million in unaudited subcontractor costs at Princeton Plasma Physics Laboratory.

Unless subcontract costs are audited in a timely manner there is a risk that audits will not be
possible due to the lack of documentation. As previously noted, over $136 million of Yucca
Mountain costs were reviewed, but not audited due in large part because of the lack of
documentation. Federal regulations require that contractors retain records for only 3 years after
the contract period.

                                              Audit Standards

We also identified one instance in which a contractor's review of subcontracts did not meet audit
standards. At Los Alamos, we determined that, while $165 million in subcontract costs were
reviewed, the reviews did not meet the required standards. To ensure the integrity and reliability
of contractor cost data, the Office of Inspector General, the Office of the Chief Financial Officer,
and the Office of Acquisition and Project Management 1, together with the Contractor Internal
Audit Council developed the Cooperative Audit Strategy. The Cooperative Audit Strategy gives
contractors the option of conducting audits of subcontractors or requesting audits by DCAA
through the contracting officer. These audits must be performed in accordance with the IIA or
equivalent standards.

In our report on Audit Coverage of Cost Allowability for Los Alamos National Laboratory during
Fiscal Years 2008 and 2009 under Department of Energy Contract No. DE-AC52-06NA25396

1
 The name of this office at the time of the Cooperative Audit Strategy was the Office of Procurement and
Assistance Management. It has since changed to the Office of Acquisition and Project Management. For clarity, we
will refer to it by its current name.


Page 3                                                                                   Details of Finding
(OAS-V-12-05, April 2012), we found that $165 million in subcontract costs were reviewed by
Los Alamos' Acquisition Services Management (ASM). However, the reviews conducted by this
Division did not meet the required standards for organizational independence and work paper
preparation and, therefore, were not done in accordance with the terms of the M&O contract.
Additionally, our review determined that the work papers lacked sufficient evidence to support
ASM's conclusions. Auditors considered the $165 million as unresolved pending audit by the
contractor's Internal Audit function.

                                     Excluded Subcontracts

We also found that, at Los Alamos, nearly $343 million in subcontract costs should have been
audited but did not require audit under a strategy approved by the Los Alamos Field Office.
While we recognize that it is often not practical for a contractor to audit all cost-type
subcontracts, many M&O contractors have developed viable approaches that limit the number of
subcontracts that must be audited each year to a manageable number while still providing
adequate audit coverage. However, in our previously identified report, we found that Los
Alamos had adopted a subcontract audit strategy that effectively excluded 973 of its 975 cost
reimbursable subcontracts and all of its 429 time and materials subcontracts from audit.
Together, these subcontracts had almost $343 million in incurred costs in FY 2008 and 2009.

Subcontract Audit Procedures

The issues we found occurred because the Department did not ensure that contractors developed
and implemented procedures to meet their contractual requirements despite the requirement
included in the M&O contracts to provide for audit coverage. As a benchmark for our
conclusions, we referred to the DCAA contract audit manual for subcontracts, which requires a
risk-based approach for selecting subcontracts for audit. Under this approach, high-risk
subcontracts over $15 million are audited annually and the low-risk subcontracts below that
threshold are audited once every 3 years. Additionally, audits are conducted according to
professional standards.

However, contrary to the best practices outlined by DCAA, we identified a number of
weaknesses, in some cases multiple weaknesses, in M&O contractors' approach to subcontract
audits. In particular, four of the nine M&O contractors had not developed approaches for
conducting audits. Another five contractors developed approaches, but did not implement them.
In addition, one M&O contractor assigned the subcontract review function to a non-audit entity
that did not perform audits in accordance with the required standards. This contractor also
adopted an audit strategy that excluded almost all of its subcontracts from its audit requirement.

                                        Audit Procedures

Four of the nine M&O contractors did not provide sufficient audit coverage of their cost-type
subcontracts because they either had not established an approach for selecting subcontracts for
audit or did not require cost incurred audits during the subcontract performance period. The
following examples highlight our concerns:



Page 4                                                                         Details of Finding
    •    The contractor at Idaho, Battelle Energy Alliance, LLC, had not developed a procedure
         to meet its contractual obligation to provide audit coverage of subcontracts. Further,
         the contractor had not established a dollar threshold or other acceptable criteria for
         determining when subcontracts were subject to periodic audit.

    •    Honeywell time and materials subcontract work instructions did not require audits of
         costs incurred during the subcontract performance period and only required closeout
         audits under certain limited circumstances.

In addition, while the remaining five contractors identified in this report had adopted an audit
approach for identifying subcontracts for audit, we identified issues with their use of these
approaches that adversely affected audit coverage. Two M&O contractors had not completed the
analysis required to determine which subcontracts should be audited under the adopted audit
approach. Additionally, two contractors did not apply the established threshold in identifying
subcontracts for audit. Another contractor had applied the threshold but had not yet completed
the audits. For example:

    •    At B&W Y-12, procedures stated that the scope and frequency of subcontract audits
         would vary based on a number of risk factors and the availability of audit resources. If
         risk factors were low and no specific areas of concern were identified, audits may have
         been waived. However, B&W Y-12 did not perform an analysis of the subcontracts to
         determine whether an audit should have been waived or the frequency in which audits
         should have been conducted.

    •    Berkeley's subcontract administration policy required a post award incurred cost audit
         of multi-year subcontracts when costs would exceed $1 million in 1 year. However,
         Berkeley excluded time and materials contracts from this threshold, a universe that
         could amount to almost $27 million for the 3 years covered by this report. Berkeley has
         since revised its policy to include time and material subcontracts to its universe of
         subcontracts subject to audit.

                                   Non-Audit Organizations

Subcontract reviews at Los Alamos were not conducted according to professional standards
because responsibility had been assigned to a non-audit organization. Subcontract audits must be
performed in accordance with professional audit standards, which include requirements for
independence, objectivity and due professional care. However, at Los Alamos, the subcontract
reviews did not meet audit standards for organizational independence and work paper
preparation because they were performed by ASM rather than Internal Audit. In fact, in 2008,
Internal Audit performed an assessment of the ASM audit function and found issues with
staffing, planning and reporting.

In response, Los Alamos Management returned the subcontract audit function to Internal Audit
in August 2010. In December 2012, subsequent to our report, Los Alamos Internal Audit
completed a second assessment of the subcontract reviews previously performed by ASM.



Page 5                                                                        Details of Finding
Internal Audit found that, although the reviews contained certain weaknesses, the amount and
type of testing performed by ASM was generally consistent with what would be done under a
Generally Accepted Government Auditing Standards compliant audit.

                                   Subcontract Audit Strategy

The Los Alamos audit strategy did not require the majority of subcontracts to be audited because
it established a threshold that was too high in relation to the audit population. Specifically, in
2009 Los Alamos adopted a subcontract audit strategy that was made retroactive to 2006, and
was based on the DCAA contract audit manual.

However, that strategy only required audits for those subcontracts with annual costs incurred of
$15 million and was therefore inconsistent with DCAA requirements that also required an audit
of lower risk (value) contracts once every 3 years. In 2010, Los Alamos transferred the
subcontract audit function to Internal Audit and proposed a revised audit strategy that was
expected to improve audit coverage.

Increased Risk

The weaknesses we identified increased the risk of wasteful spending. The lack of subcontract
audits by M&O contractors at Department sites increases the risk of the government paying
unallowable costs for the work at these sites. Further, as previously discussed, there is a 3-year
retention requirement for subcontractor cost data. Delays in conducting these audits increases the
risk that subcontractors will be unable to produce the documentation necessary to support their costs
incurred and conduct the audits. Finally, under certain circumstances the statute of limitations may
prevent the M&O contractors from recovering unallowable costs due to the expiration of time if such
costs are not identified through the performance of timely audits.

Positive Steps by Some Contractors

Through our work on this issue, we identified some positive steps that have been taken or are
planned. For example, some contractors planned to establish specific criteria that would trigger the
need for the audit and reasonable thresholds for selecting subcontracts for audit. Additionally, Los
Alamos has proposed an audit strategy to improve audit coverage and has moved the auditing
function to Internal Audit. While these steps are likely to reduce the risk of unallowable costs being
paid by the Government at these sites, there is a lack of Department-wide emphasis on the
importance of subcontract auditing at all of the Department's 28 M&O contractor locations.

RECOMMENDATIONS

Accordingly, we recommend that both the Department's Office of Acquisition and Project
Management and NNSA's Associate Administrator for Acquisition and Project Management ensure
that M&O contractors provide adequate audit coverage of cost-type subcontracts by:




Page 6                                                                       Recommendations
     1.    Adopting a documented approach for conducting audits with a reasonable threshold for
           selecting subcontracts that ensures sufficient audit coverage; and,

     2.    Ensuring that audits meet the requirements of the IIA standards.

MANAGEMENT REACTION

The Department's Office of Acquisition and Project Management concurred with the
recommendations and stated that it plans to work with the Office of Inspector General, the Office of
the Chief Financial Officer, and others to develop guidance on a risk-based approach to subcontract
audits under M&O contracts. NNSA also concurred with the recommendations, stating that its
Senior Procurement Executive will ensure M&O contractors adopt a documented approach
consistent with the recommendation and will ensure audits performed by the contractors meet IIA
standards.

AUDITOR COMMENTS

Management comments are responsive to the report. We also incorporated suggested changes to the
draft report into this report as appropriate. Management's comments are included in Appendix 2.




Page 7                                        Management Reaction and Auditor Comments
    Appendix 1

                         OFFICE OF INSPECTOR GENERAL REPORTS
                                                                                       SUBCONTRACT COSTS
         REPORT                             IDENTIFIED ISSUES
                                                                                          PENDING AUDIT

Assessment of Audit           During Fiscal Year (FY) 2010, Los Alamos                  $17.4 Million
Coverage of Cost              transferred responsibility for subcontract auditing to
Allowability for Los Alamos   its Internal Audit function. However, $17.4 million
National Laboratory during    of subcontract costs are under review by Internal
Fiscal Year 2010 under        Audit but are considered unresolved pending
Department of Energy          completion of those reviews.
Contract No. DE-AC52-
06NA25396 (OAS-V-13-01,
November 2012)
Report on Audit Coverage      Two Time and Materials Subcontracts met the               $5.7 Million
of Cost Allowability for      threshold for audit according to Berkeley's
Lawrence Berkeley National    subcontract administration plan. However, these
Laboratory for the Period     subcontracts were not audited. The two
June 1, 2005 thru             subcontracts totaled approximately $5.7 million.
September 30, 2008 under
Department of Energy
Contract No. DE-AC02-
05CH11231 (OAS-V-10-10,
April 2010)
Audit Coverage of Cost        The contractor did not always conduct or arrange          $86.3 Million
Allowability for B&W          for audits of its subcontractors when costs incurred
Technical Services Y-12,      were factor determining the amount payable to
LLC under Department of       subcontractors.
Energy Contract No. DE-
AC05-00OR22800 during
Fiscal Year 2010 (OAS-V-12-
07, May 2012)
Report on Audit Coverage      The contractor had not arranged for audits of all         $8.4 Million
of Cost Allowability for      subcontractors when costs incurred were a factor
Babcock and Wilcox            in determining the amount payable to a
Technical Services Pantex,    subcontractor.
LLC During Fiscal Years
2006 Through 2009 under
Department of Energy
Contract No. DE-AC04-
00AL66620 (OAS-V-11-03,
January 2011)
Report on Audit Coverage      Auditors noted that cost reimbursable subcontracts        $20.8 Million
of Cost Allowability for      were not audited despite audits being required by
Honeywell Federal             the Honeywell contract. Honeywell's subcontract
Manufacturing &               work instructions did not require interim audits and
Technologies, LLC under       only required closeout audits if daily time records
Department of Energy          were not approved by a buyer representative or
Contract No. DE-AC04-         mischarging was expected.
01AL66850 for Fiscal Years
2007 and 2008 (OAS-V-10-
11, May 2010)




    Page 8                                                         Office of Inspector General Reports
    Appendix 1 (continued)

                                                                                     SUBCONTRACT COSTS
        REPORT                              IDENTIFIED ISSUES
                                                                                        PENDING AUDIT

Report on Audit Coverage      The contractor did not provide sufficient audit         $10.4 Million
of Cost Allowability for      coverage of cost reimbursable subcontracts.
Battelle Energy Alliance,     Specifically, 17 subcontracts with $10.4 million in
LLC under Department of       FY 2010 incurred costs were not audited. The
Energy Contract No. DE-       contractor did not have a process in place to select
AC07-05ID14517 during         cost reimbursable subcontracts for audit.
Fiscal Year 2010 (OAS-V-12-
09, August 2012)
Report on Audit Coverage      Auditors noted that $65,905 in questioned costs         $86 Million
of Cost Allowability For      from previous audits had not been resolved.
UChicago Argonne, LLC         Additionally, two multi-year subcontracts valued at
under Department of Energy    about $38 million had not been audited on an
Contract No. DE-AC02-06-      interim basis. While UChicago Argonne arranged
CH11357 for Fiscal Year       for closeout audits of subcontracts worth $650,000
2009 (OAS-V-11-07, March      or more, there were no interim audits of ongoing
2011)                         subcontracts.
Audit Coverage of Cost        Princeton had not conducted or arranged for audits      $3.6 Million
Allowability for Princeton    of two subcontracts totaling $3.6 million.
Plasma Physics Laboratory     Princeton's policy was to audit subcontracts with
during Fiscal Years 2009-     costs totaling more than $1 million, however, these
2010 under Department of      two contracts met this threshold but were not
Energy Contract Numbers       audited.
DE-AC02-76CH03073 and
DE-AC02-09CH11466 (OAS-
V-12-06, May 2012)
Report on Audit Coverage      Auditors identified over $77 million in cost            $159.9 Million
of Cost Allowability for      reimbursable subcontract costs that had not been
Bechtel SAIC Company,         audited. Additionally, $82 million in previously
LLC during Fiscal Years       identified unaudited subcontract costs was still
2004 through 2009 under       considered unresolved pending audit.
Department of Energy
Contract No. DE-AC28-
01RW12101 (OAS-V-10-15,
July 2010)
Audit Coverage of Cost        During FYs 2008-2009, auditors found material           $165 Million
Allowability for Los Alamos   weaknesses with the subcontract audit function.
National Laboratory during    Subcontract reviews were not in compliance with
Fiscal Years 2008 and 2009    Generally Accepted Government Auditing
under Department of Energy    Standards as required. Auditors considered $165
Contract No. DE-AC52-         million in costs reviewed by Acquisition Services
06NA25396 (OAS-V-12-05,       Management as unresolved pending audit by
April 2012)                   Internal Audit. Further, the audit strategy only
                              required audits on subcontracts with annual
                              incurred costs over $15 million, which excluded all
                              but 2 of the 1,404 subcontracts with $343 million in
                              incurred costs.




    Page 9                                                        Office of Inspector General Reports
Appendix 2




Page 10      Management Comments
Appendix 2 (continued)




Page 11                  Management Comments
Appendix 2 (continued)




Page 12                  Management Comments
Appendix 2 (continued)




Page 13                  Management Comments
                                                                    IG Report No. DOE/IG-0885

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
